TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Monitoring of PRIME Contractor
                            Access to Networks and Data
                               Needs to Be Improved



                                         September 2005

                              Reference Number: 2005-20-185




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 29, 2005


 MEMORANDUM FOR CHIEF INFORMATION OFFICER
                CHIEF, MISSION ASSURANCE AND SECURITY SERVICES
                DIRECTOR, PROCUREMENT



 FROM:                        Pamela J. Gardiner
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Monitoring of PRIME Contractor Access to
                              Networks and Data Needs to Be Improved (Audit # 200520002)

 This report presents the results of our review of the monitoring of contractor access to networks
 and data. The overall objective of this review was to determine whether Internal Revenue
 Service (IRS) management implemented adequate controls over the PRIME contractor’s1 access
 to IRS networks and data.
 The IRS has about 900 contracts with private contractors. Many of these contractors must be
 given access to IRS computer systems and taxpayer data to complete their tasks, particularly
 those tasks that involve developing sensitive computer systems and providing computer
 hardware and software. In accordance with the Federal Information Security Management Act
 (FISMA),2 contractors are subject to the same security standards, guidelines, and oversight that
 are required for Federal Government agencies. Without adequate oversight by the IRS, there is a
 significant risk of misuse or disclosure of confidential data as well as possible sabotage to these
 critical systems.
 In March 2004, we reported3 that contractors were not complying with certain IRS security
 procedures and IRS procurement officials were not aware of the security regulations pertaining


 1
   The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
 companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
 information technology.
 2
   Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
 3
   Insufficient Contractor Oversight Put Data and Equipment at Risk (Reference Number 2004-20-063, dated
 March 2004).
                       Monitoring of PRIME Contractor Access to Networks
                                 and Data Needs to Be Improved



to the contractors they were assigned to oversee. In this audit, we followed up on prior
recommendations and focused on work performed by the PRIME contractor.

Synopsis
During Calendar Year 2004, PRIME contractor personnel claimed they were not being granted
timely access to systems, which affected their ability to efficiently perform their duties. As a
result, the IRS gave the PRIME contractor the authority to add, delete, and modify its own
employees’ user accounts on IRS systems. Our review showed that the PRIME contractor added
199 user accounts without any oversight by the IRS during this 1-year period. The IRS, by
allowing the PRIME contractor to approve access for its own employees with no oversight, did
not comply with the FISMA.
In January 2005, to regain control of the PRIME contractor’s access to IRS systems and data, the
IRS assigned an employee to review all requests for PRIME contractor personnel to be added to
or deleted from IRS systems. However, access was granted solely on the request of the PRIME
contractor with no justification required. We do not believe it is feasible to place this
responsibility with one person who could not possibly be aware of the PRIME contractor’s
access needs for each contract.
IRS procurement officials, specifically Contracting Officer’s Technical Representatives (COTR),
should be responsible for granting contractor employees access to IRS systems. Our findings in
this audit indicate these Procurement function officials are still not fulfilling their
responsibilities. More actions are needed to ensure contractors’ access to IRS systems is limited
to those who need it to accomplish their responsibilities and is monitored to detect any
unauthorized activity.
The IRS worked with the PRIME contractor during January 2005 to identify over
1,000 separated contractor employees who no longer needed access but who could still sign on to
IRS systems. As of May 2005, most of these accounts had been deactivated, but 160 of these
contractor employees still had access to IRS systems.
We also found no documentation to indicate the IRS was monitoring the activities of PRIME
contractor employees when they were accessing IRS systems. As a result, the risk of undetected
security violations is increased. A security specialist stated that audit trails are reviewed;
however, the reviews are not documented.
The PRIME contractor has remote access to the IRS network so it can perform much of its
systems development and test procedures from its offices in the Maryland Technology Center in
New Carrollton, Maryland. We determined the data link between the PRIME contractor’s
offices and the IRS was properly encrypted and physical security at the Maryland Technology
Center was adequate.


                                                                                                2
                       Monitoring of PRIME Contractor Access to Networks
                                 and Data Needs to Be Improved




Recommendations
We recommended the Chief Information Officer, in coordination with the Director, Procurement,
ensure procurement officials obtain sufficient justification from the PRIME contractor before
network access is granted. Also, a quarterly review of the active access account list should be
performed to ensure accounts no longer needed are promptly disabled. In addition, the Chief,
Mission Assurance and Security Services, should ensure audit trail reviews of contractor activity
are conducted as prescribed by IRS procedures.

Response
The IRS agreed with our recommendations. Management stated a Memorandum of
Understanding has been drafted outlining the roles and responsibilities of each office involved in
ensuring contractor personnel gain access to only those systems needed to perform their work. A
list of applications needed by contractors will be provided for each PRIME contractor project
and will be used by the IRS to determine whether contractors’ access requests should be granted.
The Director, Procurement, will require the PRIME contractor to submit a list of terminated
employees and an active account list quarterly. The IRS COTR will identify any accounts that
are no longer needed, and the PRIME System Access Manager will deactivate those accounts.
The Chief, Mission Assurance and Security Services, stated that all contractor activities in the
PRIME contractor test and development environment will be subject to the same monitoring
tools used on any IRS processing environment. In addition, specific instructions will be sent to
administrators of production environment systems directing them to include a review of user
access from the PRIME contractor test and development environment as a key component of
their standard system auditing activities. Management’s complete response to the draft report is
included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                   3
                                Monitoring of PRIME Contractor Access to Networks
                                          and Data Needs to Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Accesses to Systems Were Not Properly Authorized ...................................Page 2
                    Recommendations 1 through 3:...........................................Page 5

          Data Transfers Were Properly Encrypted .....................................................Page 5
          Physical Security at the Maryland Technology Center Was Adequate ........Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Management’s Response to the Draft Report ......................Page 12
                           Monitoring of PRIME Contractor Access to Networks
                                     and Data Needs to Be Improved




                                            Background

The Internal Revenue Service (IRS) has about 900 contracts with private contractors. Many of
these contractors must be given access to IRS computer systems and taxpayer data to complete
their tests, particularly those tasks that involve developing sensitive computer systems and
providing hardware and software. In accordance with the Federal Information Security
Management Act (FISMA),1 contractors are subject to the same security standards, guidelines,
and oversight that are required for Federal Government agencies. Without adequate oversight by
the IRS, there is a significant risk of misuse or disclosure of confidential data as well as possible
sabotage to these critical systems.
In this audit, we focused on work performed by the PRIME contractor2 for the IRS. PRIME
contractor employees have access to critical equipment and systems to perform their duties. We
evaluated the hardware and software access privileges, authentication requirements, monitoring
of PRIME contractor activities, and security of connections between the PRIME contractor and
the IRS computer systems. We also evaluated the physical security for one contractor-owned
work facility that contained a computer network with access to the IRS enterprise network.
This review was performed in the Modernization and Information Technology Services (MITS)
organization offices at the Martinsburg Computing Center3 in Martinsburg, West Virginia, and
the contractor-owned Maryland Technology Center (MTC)4 in New Carrollton, Maryland, during
the period November 2004 through May 2005. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




1
  Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
2
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
3
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
4
  The MTC, located adjacent to the New Carrollton Federal Building in New Carrollton, Maryland, is the principal
site at which the PRIME contractor develops and tests systems to support the IRS’ modernization efforts.
                                                                                                          Page 1
                           Monitoring of PRIME Contractor Access to Networks
                                     and Data Needs to Be Improved




                                      Results of Review

Accesses to Systems Were Not Properly Authorized

To reduce the risks of unauthorized access to Federal tax information, the IRS requires that
access to sensitive systems be limited to only those persons needing it to carry out their
responsibilities. The IRS requires employees to be formally authorized by a manager before
accessing sensitive systems. For contractor personnel, the need to access sensitive systems must
first be acknowledged by an IRS Contracting Officer’s Technical Representative (COTR) who is
responsible for overseeing contractor activities. The COTR should then prepare the
documentation to provide the contractor with access to the necessary IRS systems.

Authorizations for PRIME contractor accesses were not properly granted

During Calendar Year 2004, the IRS granted proxy rights to the PRIME contractor that allowed
it to add, delete, and modify its own employees’ user
accounts on IRS systems. The Business Systems                  The PRIME Contractor was
Modernization function of the MITS organization made this      granting access to its own
decision in response to a claim by PRIME contractor            employees with no oversight
personnel that they were not being granted timely access to    by the IRS.
systems, which affected their ability to efficiently perform
their responsibilities.
We reviewed accesses granted for applications5 used by the PRIME contractor during 2004. Of
the 423 PRIME contractor personnel with user accounts for these applications, we identified:
    •   User accounts added by the PRIME contractor without any approval or oversight by an
        IRS COTR or manager (128 user accounts).
    •   User accounts added without any approval from an IRS COTR or manager or from the
        PRIME contractor (71 user accounts). Of the 71 user accounts, 52 were supported by an


5
 We reviewed accesses for the Inventory Tracking Asset Management System (ITAMS) and the Integrated
Financial System (IFS) applications. The ITAMS provides tracking information on computer assets. The IFS
provides detailed financial, cost accounting, property accounting, and procurement data to authorized users. The
IFS Release 1 implements the core processes of general ledger, accounts payable, accounts receivable, budget
execution, cost accounting, administrative tax and travel accounting, cost performance management allocations,
some tax processing functionality, budget formulation, and budget execution decision support.
                                                                                                            Page 2
                          Monitoring of PRIME Contractor Access to Networks
                                    and Data Needs to Be Improved



        unsigned Information System User Registration/Change Request (Form 5081). The IRS
        had no documentation to show the other 19 user accounts had been added.
As a result, we could not determine who added the accounts to the systems or whether the need
for access was justified. The access decisions were made solely by the PRIME contractor. The
PRIME contractor managers given responsibility for granting access could not provide
justification for those decisions. We are coordinating with the COTRs responsible for
overseeing contractor activities on the systems used by the PRIME contractor during 2004 to
determine whether accesses by contractor personnel were justified.
In January 2005, to regain control of the PRIME contractor’s access to IRS systems and data, the
IRS appointed a MITS organization employee as the PRIME System Access Manager, to review
all requests for PRIME contractor personnel to be added to or deleted from IRS systems. In the
first 6 months after procedures were changed, 24 contractor personnel accounts were added to
various applications. For each of the 24 accounts, access was granted by the PRIME System
Access Manager without acknowledgement from a COTR that access was needed. Accesses
were granted solely on the request of the PRIME contractor with no justification as to the need
for access. As a result, the IRS Manager granting access did not have sufficient information to
determine whether the PRIME contractor employees needed access to complete their work or
whether the level of access being granted was proper for the work to be completed. We do not
believe it is feasible to place this responsibility with one person who could not possibly be aware
of the PRIME contractor’s access needs on each contract.
In March 2004, we reported6 that contractors were not complying with certain IRS security
procedures and IRS COTRs were not aware of the security regulations pertaining to the
contractors they were assigned to oversee. In that report, we recommended the Chief, Mission
Assurance and Security Services, and the Chief, Agency-Wide Shared Services, ensure the
COTRs carry out their responsibilities to periodically review contractor compliance with
established security policies. Management’s response stated the Mission Assurance and Security
Services organization would review and update guidance for Contracting Officers and COTRs on
applicable security policies. This guidance was distributed to the COTRs to assist them in
monitoring contractor activities.
Our findings in this audit indicate that COTRs are still not fulfilling their responsibilities to
review contractor compliance with established security policies. More actions are needed to
ensure contractors’ access to IRS systems is limited to those who need it to accomplish their
responsibilities and is monitored to detect any unauthorized activity.
In addition, the decision by Business Systems Modernization management to allow the PRIME
contractor to approve access for its own employees with no oversight from the IRS is contrary to


6
 Insufficient Contractor Oversight Put Data and Equipment at Risk (Reference Number 2004-20-063, dated
March 2004).
                                                                                                         Page 3
                          Monitoring of PRIME Contractor Access to Networks
                                    and Data Needs to Be Improved



FISMA guidance. FISMA Section 3544(b) requires each agency to provide security over
“information systems that support the operations and assets of the agency, including those
provided or managed by another agency, contractor, or other source.” The Office of
Management and Budget (OMB) also states agencies must develop policies for information
security oversight of contractors and must review the security of other users with privileged
access to Federal Government data and systems.7

PRIME contractor user accounts were not removed when access was no longer
required

In January 2005, the IRS Procurement function asked the PRIME contractor to identify its
personnel who had either separated from the PRIME contractor or no longer worked on any of
the applications reviewed but could still sign on to IRS systems. The PRIME contractor
identified 1,045 of its employees meeting these specifications. As of May 2005, most of these
accounts had been deactivated, but 160 of these contractor employees still had access to IRS
systems, increasing the risk of unauthorized disclosures and disruptions of operations. The IRS
requires that accounts be deactivated when there is no longer a business need to access an IRS
system. The PRIME contractor did not comply with this requirement, and the IRS did not
provide sufficient oversight to ensure PRIME contractor user accounts were promptly disabled
when no longer needed.

Monitoring of PRIME contractor activity was not sufficient to determine whether
data were properly secured

IRS policies require system activity to be monitored by
producing and reviewing audit trail data. We found no           We found no documentation that
documentation to indicate the IRS personnel responsible         contractor activities on the IRS
                                                                network are being monitored.
for the security of computer systems are reviewing audit
trails on computers used by the PRIME contractor. As a
result, the risk of undetected security violations is
increased. The security specialist stated that audit trail data are reviewed; however, the reviews
are not documented.




7
 Fiscal Year 2005 Reporting Instructions for the Federal Information Security Management Act and Agency
Privacy Management (OMB Memorandum M05-15, dated June 13, 2005).
                                                                                                      Page 4
                       Monitoring of PRIME Contractor Access to Networks
                                 and Data Needs to Be Improved




Recommendations
Recommendation 1: The Chief Information Officer, in coordination with the Director,
Procurement, should ensure COTRs obtain sufficient documentation from the PRIME contractor
to justify access to IRS systems. Before granting access to a contractor employee, the PRIME
System Access Manager should obtain acknowledgement from the respective COTR that the
access is needed.
       Management’s Response: Management agreed with this recommendation, stating
       that a Memorandum of Understanding has been drafted outlining the roles and
       responsibilities of each office involved in the process of ensuring contractors gain access
       to only those systems needed to perform their work. A list of applications needed by
       contractors will be provided for each PRIME project and will be used by the IRS to
       determine whether contractors’ access requests should be granted.
Recommendation 2: The Chief Information Officer, in coordination with the Director,
Procurement, should require the PRIME System Access Manager to review the active account
list quarterly for all applications used by the PRIME contractor to ensure accounts no longer
needed are promptly disabled.
       Management’s Response: Management agreed with this recommendation. The
       Director, Procurement, will require the PRIME contractor to submit a list of terminated
       employees and an active account list quarterly. The IRS COTR will identify any
       accounts that are no longer needed, and the PRIME System Access Manager will
       deactivate those accounts.
Recommendation 3: The Chief, Mission Assurance and Security Services, should ensure
audit trail reviews of contractor activity are conducted as prescribed by IRS procedures.
       Management’s Response: Management agreed with this recommendation. The
       Chief, Mission Assurance and Security Services, stated that all contractor activities in the
       PRIME contractor test and development environment will be subject to the same
       monitoring tools used on any other IRS processing environment. In addition, specific
       instructions will be sent to administrators of production environment systems directing
       them to include a review of user access from the PRIME contractor test and development
       environment as part of their standard system auditing activities.


Data Transfers Were Properly Encrypted

The PRIME contractor has remote access to the IRS network so it can perform much of its
systems development and test procedures at its offices in the MTC. The National Institute of
                                                                                            Page 5
                       Monitoring of PRIME Contractor Access to Networks
                                 and Data Needs to Be Improved



Standards and Technology has determined that sensitive data should be encrypted if they are
vulnerable to unauthorized disclosure. IRS policy requires that encryption shall be used for
transmitting sensitive but unclassified information among IRS facilities and between the IRS and
other facilities.
We determined the data link between the PRIME contractor’s offices and the IRS was properly
encrypted. We confirmed the software needed to encrypt and decrypt data transmitted between
the two sites was in place and functioning. As a result, the risk that data being transmitted
between them could be intercepted was adequately reduced.


Physical Security at the Maryland Technology Center Was Adequate

We reviewed the adequacy of physical security at the MTC by inspecting all closets and work
areas to determine whether they were secure and accessible only to authorized individuals. The
IRS requires that access to secure areas be closely monitored to prevent access by unauthorized
personnel. Access to these areas was controlled by the use of keycards and security cameras on
each floor containing IRS hardware.
Our test of the external perimeter of the facility showed the following three security weaknesses:
   •   The security guards did not request identification or ask that vendors sign in and out at
       the front gate when entering or exiting the facility.
   •   The door to the MTC docking area leading into the facility was ajar.
   •   A door adjacent to the docking area leading into the facility was ajar.
We informed MTC security personnel of these conditions and explained that a person with
malicious intentions could enter through the front gate without being documented and proceed
from the docking area into the MTC facility. The security personnel concurred with our
assessment and immediately began a logging procedure for guests and vendors entering through
the front gate area. In addition, an alarm was installed on the door leading to the docking area
that would activate when the door was inappropriately accessed. With these changes in place,
we found that physical security at the MTC was adequate. No other corrective actions are
recommended.




                                                                                            Page 6
                          Monitoring of PRIME Contractor Access to Networks
                                    and Data Needs to Be Improved



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether Internal Revenue Service (IRS)
management implemented adequate controls over the PRIME contractor’s1 access to IRS
networks and data. We evaluated the hardware and software access privileges, authentication
requirements, audit trail collection and review, and security of connections between the PRIME
contractor and the IRS computer systems. We also evaluated the physical security for one
contractor-owned work facility that contained a computer network with access to the IRS
enterprise network. We also followed up on prior recommendations contained on our report
dated March 2004.2 Specifically, we:
I. Determined whether the PRIME contractor’s access permissions to IRS networks were
   limited to those employees who needed it to execute their responsibilities.
    A. For Calendar Year 2004, determined whether user access was authorized by verifying
       whether each contractor employee assigned to two specific applications had an
       Information System User Registration/Change Request (Form 5081) on file for the
       system on which he or she was listed as a user. We chose the two applications because
       they were accessed most frequently by contractor personnel during Calendar Year 2004.
    B. Obtained a listing from the system administrator of users on the system who have not
       accessed the system within 45 days and 90 days. We determined whether the accounts
       were automatically locked.
    C. Determined the IRS’ and the PRIME contractor’s role in granting network access to the
       PRIME contractor.
        1. Determined how the appropriate managers verify that the required background
           investigation has been initiated or completed.
        2. Determined whether an Online Form 5081 was used and if this was mandatory, the
           contractor’s access privileges were correct, and anyone in the IRS questioned the
           contractor’s need for administrative privilege.




1
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
2
  Insufficient Contractor Oversight Put Data and Equipment at Risk (Reference Number 2004-20-063, dated
March 2004).

                                                                                                       Page 7
                           Monitoring of PRIME Contractor Access to Networks
                                     and Data Needs to Be Improved



        3. Determined how a system administrator knows when to remove system access for a
           separated or transferred contractor employee.
II. Determined the extent of the IRS’ review of audit logs of contractor-used computers at the
    two locations, the Maryland Technology Center (MTC)3 and the Martinsburg Computing
    Center.4
    A. Determined who performed the review of audit logs of PRIME contractor computers and
       how often the reviews were performed.
    B. Attempted to secure copies of any reports on audit logs for computers used by PRIME
       contractor employees; any reports showing the corrective actions taken because of the
       monitoring of the audit logs; and any incident reports that were elevated to a higher level
       of management or to the IRS Computer Systems Incident Response Center, which
       provides assistance and guidance in incident response and provides a centralized
       approach to incident handling across the IRS enterprise. The IRS could not provide any
       of the audit log reports.
III. Determined the level of physical security at the MTC using the National Institute of
     Standards and Technology (NIST) Security Self-Assessment Guide for Information
     Technology Systems (Special Publication 800-26).5
    A. Determined whether access to facilities was controlled through the use of guards,
       identification badges, and entry devices such as key cards, biometrics, and locks;
       management periodically reviewed the list of persons with physical access to the facility;
       emergency exit and reentry procedures ensured only authorized personnel were allowed
       to reenter after fire drills, etc.; and visitors to sensitive areas were required to sign in and
       were escorted.
    B. Determined whether physical accesses were monitored through audit trails, apparent
       security violations were investigated and remedial actions taken, and suspicious access
       activity was investigated and appropriate actions were taken.
    C. Determined whether visitors, contractors, and maintenance personnel were authenticated
       with preplanned appointments and identification checks.




3
  The MTC, located adjacent to the New Carrollton Federal Building in New Carrollton, Maryland, is the principal
site at which the PRIME contractor develops and tests systems being developed to support the IRS’ modernization
efforts.
4
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
5
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines for
providing adequate information security for all Federal Government agency operations and assets.

                                                                                                         Page 8
                      Monitoring of PRIME Contractor Access to Networks
                                and Data Needs to Be Improved



IV. Determined whether data transfers between the IRS and the PRIME contractor were
    encrypted and adequately secured.
   A. Verified the methods used to transfer data files between the IRS network and PRIME
      contractor personnel by physically observing file transfers.
   B. Ascertained the protocols used and obtained an explanation of the security features of
      those protocols.




                                                                                        Page 9
                      Monitoring of PRIME Contractor Access to Networks
                                and Data Needs to Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen R. Mullins, Director
Gerald Horn, Audit Manager
David Brown, Senior Auditor
William Lessa, Senior Auditor
Thomas Nacinovich, Senior Auditor
William Simmons, Senior Auditor
Stasha Smith, Senior Auditor




                                                                                         Page 10
                     Monitoring of PRIME Contractor Access to Networks
                               and Data Needs to Be Improved



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner- Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Service and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA
       Director, Procurement OS:A:P




                                                                         Page 11
       Monitoring of PRIME Contractor Access to Networks
                 and Data Needs to Be Improved



                                                 Appendix IV

Management’s Response to the Draft Report




                                                           Page 12
Monitoring of PRIME Contractor Access to Networks
          and Data Needs to Be Improved




                                                    Page 13
Monitoring of PRIME Contractor Access to Networks
          and Data Needs to Be Improved




                                                    Page 14
Monitoring of PRIME Contractor Access to Networks
          and Data Needs to Be Improved




                                                    Page 15
Monitoring of PRIME Contractor Access to Networks
          and Data Needs to Be Improved




                                                    Page 16
Monitoring of PRIME Contractor Access to Networks
          and Data Needs to Be Improved




                                                    Page 17
